Los Angeles City Hall
200 N. Spring Street, 14th Floor
Los Angeles, CA 90012

(213) 978-1868 Tel
(213) 978-2286 Fax
danielle.goldstein@lacity.org
www.lacityattorney.org

MICHAEL N. FEUER
City Attorney

May 4, 2021
Via Electronic Filing and U.S. Mail
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Cal Cartage Transp. Express, LLC v. California, No. 20-1453

Mr. Harris,
I am counsel of record for respondent the People of the State of California in the abovereferenced case. Pursuant to Rule 37.2(a) of the Rules of this Court, the People of the State of
California grant blanket consent to the filing of amicus curiae briefs in support of either or no party.
Very truly yours,

Danielle L. Goldstein
Deputy City Attorney

